0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 20-276
CHRISTOPHER M. GIBSON,

Petitioner,
V.

SECURITIES AND EXCHANGE COMMISSION, ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I
certify that the Brief of the Cato Institute, the
Competitive Enterprise Institute, and the Chamber of
Commerce of the United States of America as Amici
Curiae in Support of Petitioner contains 4,227 words,
excluding the parts of the Brief that are exempted by
Supreme Court Rule 33. l(d).
I declare under penalty of perJury that the
foregoing is true and correct.
Executed on October 5, 2020.

2n
~~1/if

[A~

Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

: 8790 Governor's Hill Drive
1
Suite 102
' Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

